Department of Health and Human Servces

        OFFICE OF

   INSPECTOR GENERAL





ELECTRONIC FUNDS TRANSFER FOR

      MEDICAID PROVIDERS





           to\'
           , StRV1Cen
                    u.



                         Richard P. Kusserow
                         INSPECTOR GENERA
      1-


                               JU 199
                         OFFICE OF INSPECfOR GENERA

The mission of the Offce of Inspector General (OIG), as mandated by Public Law 95- 452 , as
amended , is to protect the integrity of the Department of Health and Human Servces ' (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations , and
inspections conducted by three OIG operating components: the Office of Audit Servces , the
Offce of Investigations , and the Offce of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program , and management problems , and recommends courses to
correct them.

                             OFFICE OF AUDIT SERVICES
The OIG' s Offce of Audit Servces (OAS) provides all auditing servces for HHS , either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrng out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste , abuse , and
mismanagement and to promote economy and effciency throughout the Department.

                             OFFICE OF INVESTIGATIONS
The OIG' s Office of Investigations (01) conducts criminal , civil , and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions
administrative sanctions , or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

                 OFFICE OF EVALUATION AND INSPECfIONS
The OIG' s Offce of Evaluation and Inspections (OEI) conducts short- term management and
program evaluations (called inspections) that focus on issues of concern to the Department
the Congress , and the public. The findings and recommendations contained in these inspection
reports generate rapid , accurate , and up- to- date information on the effciency, vulnerabilty,
and effectiveness of departmental programs.

This report was prepared under the direction of Mark R. Yessian , Ph. , Regional Inspector
General , Office of Evaluation and Inspections , and Martha B. Kvaal , Deputy Regional
Inspector General , Office of Evaluation and Inspections , Region I. Participating in this project
were the following people:

       Boton Region                                                    Headquaers
       David R. Veroff Project Leader                                  Vicki Greene
       David Schrag, 
   Lead Analyst


For a copy of this report , please call the Boston Regional Offce at 617- 565- 1050.
Department of Health and Human Servces

        OFFICE OF

   INSPECTOR GENERAL





ELECTRONIC FUNDS TRANSFER FOR

      MEDICAID PROVIDERS





              SERVICf,f.



                           Richard P. Kusserow
                           INSPECTOR GENERAL
     '0



          "ItVc130
                               OEI- 01- 91- 00821
              EXECUTIVE SUMMARY

PUROSE
The purpose of this study is to examine the use of electronic funds transfer for
reimbursing Medicaid providers.

BACKGROUN
Electronic funds transfer (EFT) has taken the place of paper checks   for over 15   years.
It is most commonly employed to make recurring payments , such as salary and
retirement benefits.

The Health Care Financing Administration (HCFA) has recently expressed interest in
paying providers with EFT. The HCF A sees EFT as another step toward reducing
administrative costs and improving provider relations in the Medicare and Medicaid
programs.

HCF A' s Medicaid Bureau has indicated its intention to support State use of EFT.
draft revision of the State Medicaid Manual shows that HCF A plans to provide
enhanced Federal Financial Participation (FFP) for expenses related to EFT and
electronic remittance advisories (RAs). (Payers use RAs to inform providers of the
status of any outstanding claims the providers have submitted. The RA show whether
each claim has been paid , denied , or suspended for further review. ) The HCFA would
pay 90 percent of design and development costs and 75 percent of operational costs.
In contrast , HCF A pays only 50 percent of the postage costs for mailing paper checks
and RAs.

This report details the extent to which State Medicaid programs are currently paying
providers with EFT as opposed to paper checks. It also discusses problems with EFT
that States have identified and suggests possible solutions.

FIINGS
Only eight States are usng EFT to reimbure Medicaid proviers.

Many States see advantages to using EFT Several   States are   conserig EFT but few
have defite plans to adopt it.


States have identified a diverse set of problems with EFT Some of these are eas
address, but others are more difcult.

        Three commonly cited obstacles to EFT-- loss of cash flow , potential fraud
        and initial cost--seem easily surmountable.
         Additional obstacles to EFT may make it harder to implement in some States
         than in others.

         Greater use of EFT may not create substantial savings unless accompanied by
         lesser use of paper remittance advisories.

RECOMMNDATIONS


HCF A should: 

To address the problems and concerns regarding EFT that States have identified , the


Work with the State Medicaid Directors ' Assocition (SMDA) to identi aditonal
problems with EFT facing States and to share other States ' solutions to those problems.

Work with the National Automated Clearing House Association (NACHA) both to
exlore how the Automated Clearing House can be used for Medicaid EFT and RA and
to provie information to States.

Ast States in developing billng agreements for proviers who use electronic claim
remittance advisories, and   fu   transers.   In particular ,   HCF A could (1) specify
wording for biling agreements that would satisfy Federal requirements , and (2)
distribute to all States copies of biling agreements used by States that currently
employ EFT.

Develop guidelines for provider partcipation in EFT These guidelines should identify
conditions that States could impose on providers receiving payment through EFT.

COMMNT
We solicited and received comments on our draft report from HCFA, the Assistant
Secretary for Planning and Evaluation (ASPE), SMDA, and NACHA. The ASPE
SMDA , and NACHA were supportive of our recommendations and provided only
technical comments. The HCF A concurred with our first two recommendations but
did not concur with the last two as originally drafted. In response to HCFA'
comments , we modified those two recommendations. They now more accurately
reflect our vision of HCFA' s role in promoting EFT technology. An explanation of
the changes is provided on pages 10- 11 and in appendix A.
                                                                                               . . . . . . . . . . . . . . . . . . .. .. ... .. .. . . . .. ...
              . . .. .. .. .. .. .. .. .. .. .. .. .. ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... ... .. .. .
                                                                                                                                                . . .
                                                                                                                                                    . .. .. .. .. ... .. .. .. . . . . . ..




                                TABLE OF CONTENTS

                                                                                                                                                                                 PAGE
EXECUTIVE SUMMARY                                                                                                                                                      . . . . . . . 1




INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

FINDINGS

RECOMMENDATIONS ........................................... 9

COMMENTS ON THE DRAF REPORT

APPENDICES

A. Detailed Comments on the Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . A­

B. Notes                                                                                                                   . . . . . . . . . . . . . . . . . . . B­
                         INTRODUCTION

PUROSE
The purpose of this study is to examine the use of electronic funds transfer for
reimbursing Medicaid providers.

BACKGROUN
Electronic funds transfer (EFT) has taken the place of paper checks   for over 15   years.
It is most commonly employed to make recurring payments , such as salary and
retirement benefits. About 17 000 banks and other financial institutions and 35 000
businesses use EFT through the national Automated Clearing House (ACH) system.

The Health Care Financing Administration (HCFA) already provides strong incentives
for providers to bil the Medicare program in electronic form. 2 It also bore 90
percent of the development costs for each State s Medicaid Management Information
System (MMIS)--a powerful computer system for processing claims and maintaining
utilization data. 3 The HCFA has recently expressed interest in paying Medicare and
Medicaid providers through EFT , which it sees as another step toward automating
claims processing. It believes that EFT can reduce administrative costs and improve
provider relations in those programs.

In July 1991 ,
             at the request of providers and Medicare contractors , HCFA proposed a
new payment system for Medicare. 4 The system would give providers the option of
receiving payments through EFT rather than by paper check. Providers support EFT
because it would relieve them from delivering paper checks to their own banks and
eliminate the time they have to wait for checks to clear before drawing upon them.
The HCF A supports EFT because each transfer would cost only 3 to 10 cents , as
opposed to the first- class postage costs for paper checks (now 29 cents before bulk
discounts).

The HCFA plans to use EFT as an incentive to automate other Medicare claims-
processing functions. Only providers submitting electronic claims and agreeing to
accept electronic remittance advisories (RAs) would be eligible for EFT. (Payers use
RAs to inform providers of the status of any outstanding claims the providers have
submitted. The RAs show whether each claim has been paid , denied , or suspended
for further review. ) The RAs wil be sent back to providers over the same telephone
Jines used by providers to submit claims.

Unlike Medicare , Medicaid is a State-operated program. The HCFA does not
reimburse providers directly, but reimburses States for a portion of their expenditures.
Therefore , HCF A could not institute EFT for the Medicaid program unilaterally. It is
in HCFA' s interest for States to use EFT rather than paper checks , however , because
a reduction in States ' administrative costs would lead to a reduction in Federal
reimbursement as well.

The HCFA' s Medicaid Bureau has indicated its intention to support State use of EFT.
A January 1992 revision of the State Medicaid Manual indicates that HCFA will
provide enhanced Federal Financial Participation (FFP) for expenses related to EFT
and electronic RAs. The HCFA will pay 90 percent of design and development costs
and 75 percent of operational costs. In contrast , HCF A pays only 50 percent of the
postage costs for mailing paper checks and RAs.

This report details the extent to which State Medicaid programs are currently paying
provider claims through EFT as opposed to paper checks. It also discusses problems
with EFT that States have identified and suggests possible solutions.

METIODOWGY
Data for this report were collected during a related project on point-of-servce (PaS)
claims management systems (OEI- 01- 91- 00820). Telephone intervews were conducted
in May and June 1991 with Medicaid claims management staff in every State except
West Virginia. 6 We also held less formal telephone discussions with staff from HCFA
and the Federal Reserve Bank.
                                 FINDINGS

ONLY EIGHT STATE AR USING EFf TO REIMURSE MEDICAI
PROVIERS.
In 42 States , all providers are paid with paper checks. The only States now using EFT
are Arizona , Florida , Georgia , Nebraska , New Jersey, North Carolina , Pennsylvania
and Texas. Respondents from Arizona , Georgia , Nebraska , New Jersey, Pennsylvania
and Texas indicated that EFT is available only to a few tyes of providers. 7 These
results are displayed in table

MA STATE SEE ADVANAGES TO                    USING EFf.     SEVERA STATE
CONSIDERING EFf, BUT FEW HAVE DEFIN                      PLAS   TO ADOPT IT.

Respondents from the large majority of States identified at least one benefit of EFT.
Not surprisingly, most pointed out that EFT would improve provider relations by
speeding up payments and would reduce administrative costs for printing and
postage. 9 Respondents from two States also noted that EFT could eliminate lost
checks. This could be a significant benefit: Medicaid officials in Idaho have estimated
the replacement cost of a single lost check to be $47.

Of the 42 States with no EFT capabilities , only 6 (Arkansas , California , Maine
Maryland , Tennessee , and Utah) have definite plans to add EFT. Three States
(Georgia , New Jersey and Texas) that use some EFT have definite plans to expand.

Apart from these nine States , there is little or no movement toward the use of EFT.
Nineteen States reported that EFT was under discussion , but 22 others reported no
intention to change (table 1).

STATE HAVE IDENTIED A DIVRSE SET OF PROBLEMS  EFf.
SOME OF THE AR EAY TO ADDRES , BUT OTHRS AR MORE
                                                                     WI
DIFICUT.
Three commonly cited obstacles to EFT--Ioss of cash flow, potentil fraud and initil
cost--seem easly   suountable.
One of the more easily handled concerns involves cash flow. States fear that EFT wil
loosen their control over bank balances and promote quicker fund depletion , leading
to a loss of interest. There is no reason , however , why EFT must have these effects.
Although it is true that EFT eliminates the " float " of funds that occurs while checks
are in the mail , the transfers can be scheduled to compensate for that loss. In fact
HCF A has already anticipated this problem with regard to Medicare payments. The
new plans call for a three-working- day delay between the time paper checks would
have been issued and the time EFTs are actually made. The delay is designed
                                                TABLE 1:

                            STATE MEDICAI                PROGRA'

           CUNT USE          OF EFf        AN STATUS OF PlAS                      TO    CHGE

 STATE             USES EFT?
                           ST A TUS OF PLANS
 Alabama
                                               None

 Alaska
                                               Non

 Ari zona          Yes--Large health plans only        None

 Arkansas                                              Definlte--For PharmacIes onlv at          firs t
 Cal Hornia                                            Definite--All provider typs
 Colorado                                              Under discussion

 Connect i cut                                         None

 Delaware                                              Under di scuss I on

                                                       None

 Florida           Yes--All provider typs              None

 Georg i a                                      homs
 Hawa ii
                   Yes--Hospitals. nursing             Definlte--Expand       to all provi der   typs

                                                       None

 Idaho                                                 None

 Illinois                                              Under dl scuss i on

 Indiana
                                              None

 Iowa
                                                 None

Kansas
                                                Under discussion

Kentucky
                                              Under discussion

Louisiana
                                             None
Maine
                                                 Definlte--EFT and electronic RAs          for all
                                                       provider typs
Maryland
                                              Definite--All provider       typs

Massachusetts
                                         Non

Michigan
                                              None

Minnesota
                                             Under    dIscussion

MississiDDi
                                           Under    discussion

Mi ssouri                                              Under    discussion

Montana
                                               Under    discussion

Nebraska           Yes- -State institutions only
      None
Nevada
                                                None
New HalJh ire
                                         Under discussion

New Jersey         Yes--Hospitals only
                Definite--EFT daily for hospitals , weekly for

                                                       LTC facilities other provider typs

New Mexico
                                            Under discussion

New York                                               Under discussion

North Carol ina    Yes- -All provider   types          None
North Dakota                                           None
Ohio                                                   None
Oklahom                                                None
Oregon                                                 Unde r discuss I
Pennsyl vani a     Yes--Capitation providers only      Under discussion

Rhode Island
                                          None
South Carol i na                                       Under discussion

South Dakota
                                          Non
Tennessee                                              Definite--Weekly paymnts
Texas              Yes- -Contracted svstems only       Definite--Avai lable to      more Pharmaci es
Utah                                                   Definite--All provider typs
Vermont                                                Under discussion

Virginia                                               None
Washin ton                                             Under dl scuss Ion
West Virginia                       Did not respond
Wi scons i n                                           Under dIscussIon
Wyom i ng                                              Under dIscussion

Source: OIG survey of State Medicaid agencies , June 1991.

specifically " to minimize the loss of interest to the Medicare Trust Fund.
                                                                              "B States
concerned about cash flow problems could impose similar delays. Of course , such
delays might limit gains in provider satisfaction. Stil , the convenience of EFT and the
abilty to draw on funds immediately after payment should make EFT attractive to
providers anyway.



Another commonly expressed fear is fraud. Federal regulations require States to
notify providers that fiing false claims and accepting payment for them are violations
of law. The regulations specify that this notification must be printed either on the
claim form or on the payment check. When prosecuting alleged fraud , many States
rely on providers ' signatures on these papers to prove that providers were aware of
the penalties and knowingly submitted the claims or accepted payment. A number of
respondents expressed concern that EFT would eliminate their opportunity to obtain
providers ' signatures , especially for those who submit claims electronically.

The HCFA and several States , however , do not seem to share this concer-n. There are
a number of ways to collect providers ' signatures or an acceptable substitute , even for
electronically submitted claims. Thirty-nine States use annual biling agreements , 12
use cover sheets that accompany diskette and tape submissions , and 2 require
passwords for on- line claims submission (table 2). Six States rely on check
endorsements , either alone or in conjunction with other methods. The HCFA, in its
revision to the State Medicaid Manual , has indicated that biling agreements " updated
as needed" would satisfy the Federal requirements. It recommends that Medicaid
agencies confer with their States ' Attorneys General to ensure compliance with State
laws.

Some Medicaid officials responded that though EFT may simplify and economize
program administration in the long run , it is difficult and costly to implement initially.
These officials said their States had neither the staff time nor the money to commit to
such an undertaking. Start-up costs are a major obstacle for States wishing to
implement any type of advancement in computerized claims processing. 12 The
HCFA has anticipated this problem and , as stated earlier , is offering enhanced
matching funds as an incentive.

Additional obstacles to EFT may make it harder to implement in some States than in
others.

In some States , payments to providers are made not by the Medicaid agency or fiscal
agent but by another State agency such as the Treasury or Comptroller s Office. In
those States ,   there may be any number of additional reasons   the organizations
responsible for payment have shied away from EFT. Whatever the reasons , HCF A
might not have sufficient leverage with those other State agencies to bring about a
conversion.

Also, there may be circumstances peculiar to individual States that could pose diffcult
problems. For example ,     one respondent expressed doubts about the sophistication
                                        TABLE 2:

               METHODS USED BY STATE MEDICAI AGENCIE

                  TO PROVE ACCOUNABILIT FOR                          ClS

                    CHECK              BILLING              COVER
STATE               ENDORSEMENT        AGREEMENT            SHEET       PASSWORD
Alabama                                Yes
Alaska              Yes                Yes
Ari zona                               Yes                  Yes
Arkansas                               Yes
Cal ifornia                            Yes                  Yes
Colorado                               Yes
Connec t i cut                         Yes
Delaware                               Yes                              Yes
                                                            Yes
Florida                                Yes
GeorCli a                              Yes
Hawaii                                 Yes
Idaho                                  Yes
III inois                              Yes
Indiana                                Yes
Iowa                                   Yes                  Yes
Kansas                                 Yes
Kentucky.                              Yes
Loui s i ana                                                Yes
Maine                                  Yes
Maryland                               Yes
Massachusetts                                      Did not resDond
Michigan            Yes               Yes
Minnesota                             Yes
Mississippi                           Yes
Missouri                              Yes
Montana             Yes               Yes
Nebraska                              Yes                   Yes
Nevada                                             Did not resDond
New Hamcshi re                        Yes
New Jersev                            Yes
New Mex i co                                                Yes
New York                                                    Yes
North Carol ina                       Yes
North Dakota                          Yes                   Yes
Ohio                Yes
Ok lahoma                             Yes
Oregon                                Yes
Pennsvl vani a                                              Yes
Rhode Is land                                      Did not resDond
South Carol ina     Yes
South Dakota                          Yes
Tennessee                             Yes
Texas                                 Yes
Utah                                                        Yes        Yes
Vermont                               Yes                   Yes
VirClinia                             Yes
Wash i ngton        Yes               Yes
West Virginia                                      Did not resDond
Wisconsin                             Yes
Wyomi ng                              Yes
Total "Yes"

Source: OIG survey of State Medicaid agencies , June 1991.

                                                                             , "




his State s banks and their ability to accommodate EFT. Clearly, HCFA cannot be
responsible for upgrading banks ' computer capabilities. Another respondent , this one
from California , had other reservations about EFT. Medicaid providers there
apparently change addresses and bank accounts at a high rate. Approximately 5 to 10
percent make a change each month. This can negate the benefits of EFT , which is
designed to take advantage of regularity in payments. The respondent , however
thought that the problem might be unique to California , which has , he said a bank on
every corner. " Where providers have fewer choices in financial institutions , account
changes may be less frequent.

Greater use of EFT ma not create substantial savigs unless accompanied by leer      use
of paper remittance advisories.

Four respondents questioned the ability of EFT to save money without a concurrent
switch to electronic remittance advisories (RAs). This is a serious concern.

At first glance , a comparison of the transaction cost per EFT (3 to 10 cents) with the
paper and postage costs of each check (about 29 cents) makes EFT appear to be a
clear money saver. But because paper checks are now usually packaged with paper
remittance advisories , this comparison may be fallacious.

When RAs are printed on paper and mailed to providers , the incremental costs of
printing and including a reimbursement check in the same envelope are negligible-­
apparently even less than the cost of EFTP Therefore , few if any financial gains
would result from substituting EFT for paper checks if the State continued to send
paper RAs.


The decline of paper RAs may be imminent , however. Several States are already
transmitting electronic RAs to at least some providers. In most of those States , the
RAs are delivered on computer tape or diskette. I4 In those cases , the RAs must stil
be mailed or hand- delivered , and a paper check can easily be included. But Hawaii
and Kentucky have the ability to send RAs on- line-- that is , over telephone lines--and
Arkansas plans to add a similar ability in early 1992. States could save money by using
EFT for providers who receive on- line RAs.

On- line RAs wil soon become an option for many more States. The American
National Standards Institute has created a nationwide standard for electronic
remittance advisories. States should be able to use this standard to send on- line RA
to providers ' financial institutions through the Automated Clearing House-- the same
network used to send EFT. Providers could arrange to obtain the RAs from their
financial institutions in a variety of ways.



EFT could generate savings even without on- line RAs. It is well established that
electronically submitted claims are cheaper to process than paper claims. I6 States
could follow the Medicare example of using EFT as an incentive to promote electronic
claims submission. In fact , some States now provide electronic RAs only to providers
who submit electronic claims , thus creating a similar incentive.

EFT might also save money by allowing States to prepare RAs less frequently.
Providers might be satisfied with biweekly or monthly RAs if they stil received weekly
EFT. If this were true , States now sending weekly RAs could cut associated costs by
50 to 75 percent.

                   RECOMMENDA TIONS

The HCF A has already taken a major step by offering enhanced funding for electronic
funds transfer and remittance advisories. But it is unlikely that this step alone will
motivate many States to use EFT , given the numerous problems with EFT that the
States have identified. To address these concerns , HCFA should:

Work with the State Medicaid Directors ' Association to identify additional problem wih
EFT facing States and to share other States ' solutions to those problem.

Work with the National Automated Clearing House Association both to exlore how        the
Automated Clearig House can be used for Medicaid EFT and RA and to provi
information to States.

Assit States in developing biling agreements for providers who use electronic claim
remittance adviories, and fu
appropriate. (1) The HCFA could
                                 transers.Two actions in particular would be
                                                                agreements that would
                                             specify wording for biling
satisfy Federal requirements , as it has for claim forms and paper checks (42 CFR
455. 18- 19). This wording could then be added to State-specific biling agreements.
(2) The HCFA could distribute to all States copies . of biling agreements used by
States that currently employ EFT. States choosing to implement EFT could use these
current agreements as models.



Develop guidelines for provider partcipation in EFT These guidelines should identify
conditions that States could impose on providers receiving payment through EFT.
Possibilities include requiring electronic claims submission and electronic RAs (as
HCFA has proposed for the Medicare program), or limiting changes in bank accounts.
In developing these guidelines HCFA should draw on the experiences of the States
already using EFT and of the Medicare program.
  COMMENTS ON THE DRAFT REPORT

We solicited and received comments on our draft report from two components of the
Department of Health and Human Services-- the Health Care Financing
Administration (HCFA) and the Assistant Secretary for Planning and Evaluation
(ASPE). We also solicited and received comments from two independent
organizations--the State Medicaid Directors ' Association (SMDA) and the National
Automated Clearing House Association (NACHA). We reproduce these comments in
appendix A; our response to the comments appears below.

Commnts from HCFA

The HCF A concurred with our recommendations that it work with SMDA and
NACHA to investigate ways to facilitate adoption of EFT. It did not concur , however
with our recommendations to develop a standard biling agreement and a                               set of rules
for provider participation. (The draft version s recommendations are reprinted in
HCFA' s comments , which are contained in appendix A. ) The HCFA reiterated its
support for EFT , but stated that it needed further analysis of our findings before
agreeing to these recommendations.

The HCFA believed that implementing our recommendations would constitute a
nationwide , Federal mandate that State Medicaid programs implement EFT. That
was not our intention. We firmly believe that EFT should remain an optional
component of the Medicaid program , and that the decision to provide enhanced
Federal funding of EFT should be made on a State- by- State basis. We see our
recommendations as steps that HCF A should take to help those States 

                                                                                              choosing

adopt EFT to do so in a cost-effective manner.

In response to HCFA' s concerns , we have modified our last two recommendations.
We no longer call for HCFA to develop a provider biling agreement that would
satisfy legal requirements in all States; instead , we call for HCFA to assist States in
developing customized biling agreements. Also , we now describe the conditions for
provider participation as " guidelines " rather than " rules " and make clear that the
ultimate decision on whether to use the guidelines                       should be left to the States.
believe that by implementing these recommendations , HCFA wil move toward its
stated goal of supporting State use of EFT. At the same time , HCFA wil help ensure
that if and when EFT is adopted by States it offers benefits to providers , States , and
HCF A.

The HCF A made two technical comments , both calling for further analysis of
statements made in the report.

           California providers switching bank accounts We offered this example simply
           to ilustrate potentialproblems with EFT. We do not mean to suggest that all
      States would face similar problems on the same scale. Therefore , we did not
      feel that further analysis is necessary.


      Use of electronic RAs . The questions HCFA raises about electronic RAs are
      excellent and certainly need to be answered in the course of implementing
      EFT. It is precisely these sorts of questions that we think HCF A should
      address in consultation with SMDA and NACHA (see our first two
      recommenda tions).

Comments from other organizationS

The ASPE commented that the State Medicaid Manual revisions      referred to as a draft
in our draft report have now been finalized. Our report now reflects this update.

The SMDA found our report useful and believes that State Medicaid agencies will
support our recom endations to HCF A. We appreciate SMDA' s comments and infer
that SMDA is wiling to work with HCFA as suggested in our first recommendation.

The NACHA expressed support for Medicaid agencies ' use of EFT and identified
three specific issues for HCFA and the States to consider. We appreciate NACHA'
support and believe that these issues should be addressed jointly by HCFA and
NACHA.
                             APPENDIX A

            DETAID COMMNT ON TH DRA REPORT
                      OIG REPONSE TO TH            COMMNT
In this appendix , we present in full the comments on the draft report offered by the
Health Care Financing Administration (HCFA), the Assistant Secretary for Planning
and Evaluation (ASPE), the State Medicaid Directors ' Association (SMDA), and the
National Automated Clearing House Association (NACHA). Our response to each
set of comments is contained in the section of the report titled " Comments on the
Draft Report.




                                        A -

                                                                                                                  . / -:


                                                                                     Health Care
              DEPARTMENT OF HEALTH &. HVMAI\ SERVICES                                Financing Administration.




,(.".'0
                                                                                     Memorandum
   Date       APR I 4 


   From      J. Michael Hudson 


             Actig Admtrator 



                                          Ii
   Subject
             OIG Draf Report: fElectrorUc Funds            Tranfer tor Medicad Provders,

             (OEI-Ol- 91-021)


             Inpector General

             Ofce of the Secreta

                    Wt; have revewed the subject draft report which dicusses the degree to which
             States bave adopted Electonic Funds Tranfer (EFT for payment of Medicad
             provders. The report also identied a number of factors which prevented additional
             States from adopting thi fuds transfer method.

                    OIG found that only eight States curently use     EF. DIG indicates these States
             recogned several advantages through EFT use , includig additional admtrative
             savigs. In order to promote EFT, OIG recommends that HCFA: (1) work with the
             State Medicaid Directors ' Association and (2) the National Automated Qearg House
             Association to promote EFT implementation among Medicaid provders; (3) work with
             State Medicad agencies to create a stadard , fraud- proof     bilg
                                                                              agreement for
             provders using electronic claims , remittace advsories and fuds transfers, and ensure
             that this agreement satisfies legal signature requiements on both Federal and State
             levels; and (4) design reasonable rules for provders receivg EFT which require
             electronic          clai
                               submision and electonic remittance adviories or       litig
                                                                                      ban
             accunt changes.
                  DIG' s recommendations are geared toward implementing EFT nationwide.
             Though we concur with the fit two recommendations, we do not believe the report
             provdes conclusive evidence that nationwide implementation ca actua be
             accmplished at tbs           tie.
                                         Since the purpse of funher implementation of EFT is to
             achieve savigs larger than those produced by the sytems most States cuentl
             employ, we believe DIG should investigate the costs and benefits of EF more
             thoroughly in accrdace with our attached comments. Consequentl, we defer
             concurg with           the   remaig two   OIG recommendations unti a more comprehensive
             report is completed.

                 Thank you for the opportunty to review and comment on          th
                                                                               draf report Please
             advse us whether you agree with our position on the report s recommendations at your
             earliest convenience.

             Attchment

                                                         A-2
                                                                                                              /r.
                 Comments of the Health Care Financing Administration
          (HA)     on the OIQraft Report: '     'Eectronic funds 


                          edicaid Provders " OEI- OI- 91- 00821



Recommendation 1


That HCF A work with the State Medicad Diectors ' Asocition to identi additional
problems with Electronic Funds Tranfer (EF) facig States and to share other States
solutions to those problems.

  ecommenqation 2


That HCF A work with the National Automated Clearg House Asocation both to
explore how the Automated Clearg House ca be usd for Medicad EF and RA
(remittace adviories) and to provde inormtion to States.

         esponse to Recommendations 1 and 2

We concur with these recommendations, panicularly gien Secreta Sul' s cuent
intiatie to reduce admistrative health cae expenses though increased use of
electronic data submision. We believe it wi be fritful to work with the State
Medicad Directors ' Association on plans for comprehensive Medicad implementation
of EFT. By doing so , we anticipate gaing a better understadig of the diculties
States face and the solutions they fid. Workig with the National Automated Clearg
House Association should funher faciltate ths process by explorig options for EFT,
electronic RA and transferrg inormation electronica to States.

RecommendMjon 3

That HCF A work   with State Medicad agencies   to create a          stadad, fraud- proof bilg
agreement for provders using electonic clais,   RA   and fuds tranfers. The
agreement should be wrtten to satisfy legal signature requirements in every State       as
well as Federal legal requiements.

Recommendation 4


That HCF A   design a reasonable set of rules to which provders must agree in order to
receive EFT. These rules must include requirg electonic              clai submiion, requig
electonic RA , or liting changes in ban accounts.




                                           A - 3

Page 2

BCFA     Response to Recommenqations 3 and

HCF A support the goal of the OIG report. We currently provde enhanced Federa
Financial Parcipation to those States that wih to develop EFT sytems. Givg
Medicad provders those same options would also be consistent with HCFA' s long-
term goal. However, notwthstading our    conceptual support for EFT, we caot
concu with Recommendations 3 and 4.

OIG' s recommendations are geaed towd nationa implementation of    for     EF
Medicad. However, we believe EFT implementation on th sce inolves a
considerably more complex set of isues th diusd with               th
                                                                 report A more
thorough analis of the relative costs and benefits of EF is alo requied for each
dicrete par: the Federal governent, States, provders inurers etc Whe such
anis m y be beyond the scpe of the origial study, we caot endors the key
fidig supportg these recommendations without such effort Unti a more rigorous
analyis is provded, we alo caot commt     ourelves to developing a        stadadid
bilg agreement for pnmders using electonic cla                electonic RA and EF.
OIG needs to exame the varety of State sytems and the impact such vaety wi
have on nationaJ implementation effort. Consideration of themultiplicity of State
sytems, and concomitat effects on potential savigs, must be underten before the
recommendations of   th    report ca be reconsidered. Though the report repetedl
mentions that eight States now employ EFT, there are no defitie statements that
EFT has been found to be cost-effecte in any of these intace. Moreover, OIG
does not discuss the operational expriences of any of these States. Such dicuion
would be invaluable in determg the benefits of national Medicad EFT
implementation. We   believe that a  de facto mandating of EFT without fuher study
would be counterproductie, because it would serve to retad rather than foster the
interest of States in EFT.

Techncal Comments




              Medcad provders there (Caorna) appaentl change              addresss
              and ban accunts at a high rate.   Approxately     to 10 percent
              make a change each month. Ths can negate the benefits of EF,
              which is designed to tae advtage of reguarty in payments. The
              respondent, however, thought the problem might be unque to
              Caorna..
OIG does not provde analyis of these statements. The report does not clar how
comparable Caorna is to other States, nor how signcatly savigs in Caorna are
afected by   th problem.
                                       A - 4

Page 3


Pa,e 7. far&mpU
The fial  sentence of this paragraph reads .few, if any, fiancial gains would result
from substitutig EFT for paper checks if States continue to send paper RA. " Given
that use of both      and electonic RA is stated to be necessar to achieve cost­
                      EF

effecteness, dicusion of the costs and impediments to accptace of RA among
Medcad provders alo seems waanted. Subsequent statements that ' 'te declie          of
paper RA        immin ent " and "RA wi soon beme options for may more
             may be

States " do not sufciently quell concern.

For exple, there should be a dicusion               pnMders wi have to obta
                                            of whether
speial equipment to receive electonic RA. If obtag equipment is necess, what
are the costs per provder? Is there one preferred sytem compatIble with al State
operations, or are multiple options   necess? If dierent   sytems must be   us what
are the prjce diferential, and how liely is it that each State s Medicad provders
tae on    such additional expenses? Could a national requirement for use of both
and electonic RA have a negatie impact on beneficiar accss to medica cae?
These questions need to be addressed.




                                             A - 5

.;.

         DEPARTMENT OF HEALTH & HUMAN SERVICES              OfIC of the Secety


                                                            Washington, D. C. 20201





       TO:        Richard P. Kusserow
                  Inspector General
       FROM:      Assistant Secretary for
                  Planning and Evaluation
       SUBJECT:   OIG Draft Report: "Electronic Funds Transfer (EFT) for
                  Medicaid Providers    " OEI-Ol-91-00821

       Thank you for providing me with an opportunity to review your
       draft report on EFT for Medicaid providers. I would suggest only
       one change to reflect a development that has occurred since your
       report was drafted. The report should be revised to reflect that
       HCFA I s State Medicaid Manual revision concerning the enhanced
       match for EFT efforts has been finalized. It is currently at the
       printer and is expected to go out in the next four to six weeks.




                                Martin H.         Gerry




                                         A - 6

                                                                    .,
                                                                    , "..... .-.
                                                                    ..._...  "        - ,.,..-
                                                                                    ',..'        . - ,., .-.-' . _.' p    "'.




                 STATE MEDICAID DIRECTORS' ASSOCIATION
                                                                                   .O
                                                             . L'                                                           "h"




 March 24, 199



 Mr. RkhardP. Kusserow ,                     Inspetor General
     S. Depaent of Health & Human Services

 Washington, ' D. C. 20201


 Dear Inspector General Kusserow;

 I have reviewed your draft report entitled Electronic Funds Transfer for Medicaid Providc
 This report provides a useful anlysis of both  benefits and poential problems with electronic
 funds transfer (EFT systems. Moreover , the report provides useful
                                                                    inormation on state
 which wil be of asistance to those states wishing to explure this technology further. activities
                                                                                        I believe
 the report' s summation of the diversity of state concerns with EFT
                                                                                                                                   iJ be helpful in framing the
 discussion on how best to resolve those issues.

r believe state Medicaid agencies wil support the recommendations contained in the druft report
and wil support efforts to promote discussion of EFT.


. Sincerely,




Ray Haley I Chairman

State Mcdicajd Directors ' Association and
Director, Arkansas Office of Medical Services




                tHO Fir.t Stret ,
                                 An affiliate of lbe

                                        N.
                                                             Ameli c:m PubLic
                                               , Suite SOO, Wd.o;i                                             c.
                                                                                                                         lbre     Astion
                                                                                                                         2002-405 (202) 682.(lOO
                                                      ACH

                            America     s Laf1'C. st Electronic Payments Network

                                               NArIO:-AL AUlMATED
                                          CU-:AIU:-C HOUSE ASSOCIATION


                                                     April 27 , 1992



Mr. Richard P. K usserow

Inspector General

Department of Health & Human Services

Washington , D. C. 20201

Dear Mr. Kusserow:


            nk you for the opportunity to comment on your draft report entitled
 ElectroniC' Funds Transfer for Medicaid Providers . The National Automated Clearing
House Association (NACHA) is a trade association representing 42 member Automated
Clearing House tACH) associa tions whose members comprise over 15 500 depository
financial institutions. NACHA establishes the rules for the inter-regional exchange of
commercial ACH payments and develops new ACH products and improves existing ones
in order to meet the needs of financial institution participants and their
NACHA also provides marketing and educational services to its members.customers.
                                                                            The ACH
network is a nationwide payments system used by more than 22                              500 participating
fj nancial institutions ,000 corporations , and millions of consumers. In 1991 over 1.7
                            120
billion commercial and government ACH transactions with a value                              of over $6. 9   trillion
was sent over the ACH network.
       NACHA is pleased that the Health Care Financing Administration (HCFA) is
encouraging the use of electronic funds transfer for reimbursing Medicaid providers and
supports your efforts. Using the ACH for this purpose would be a natural
                                                                             fit. As you
indicated in your report , effective April 3 , 1992 the NACHA Operating Rules were
amended to permit the use of the ANSI ASC X12. 85 (Healthcare Claims Payment Order)
transaction set to the table of permissible ANSI transactions be used in the
                                                                             CCD+ and
CTX transactions. In addition , NACHA' s Board of Directors are currently reviewing    a
proposed rule amendment that would increase the number of addenda records
accompanying a CTX from 4 990 to 9 999. One of the reasons this proposed rule change
was set in motion was due to a request from the health care industry.
       I believe that several         issues need to addre!;            ed prior to using the ACH to
reimburse Medicaid providers. Some of the issues identified include:

       Compliance with standards. As mentioned above ,             ASC X12.       the ANSI
       transaction set has been approved for use with CCD+ and CTX.
       these standards are extremely important in ensuring the integrityCompliance  with
                                                                         of the payment
       system.
       Payment remittance information. The ACH network is a payments system that
       permits payment related information to accompany the payment. The
       Operating Rules were recently amended to permit zero dollar corporateNACHA
                                                                             payments
       over the ACH so long as the entry carries an addenda which contains remittance
       information. If a format other than the ANSI ASC X12. 85 is being considered for




                                  Suitc 200 , 607 Hcrn don Parkw.y Ht'rn don , VA 22070
                                           703/742. 9190   .
                                                                   i83/787. 096
                                                     ..cycled paper *
R. Kusserow
April 17 , 1992

Page 2


       use HCFA would need to receive approval of the proposed format by the NACHA
              Directors. . At a minimum , proposals for rule
       Board of
       by NACHA at least one year prior to implementation. changes must be received
       Awareness. The financial industry should be made aware of HCFA' s plans to        use
       the ACH for Medicaid payments. NACHA and its regional ACH associations
       publish newsletters and sponsor workshops that may be avenues for HCFA to
       keep financial institutions apprised. Support by the financial industry could
       assist HCFA in getting additional states to adopt electronic funds transfer for
       Medicaid payments.


      NACHA would be more than happy to sit down with you or your staff to
HCFA' s plans for using the ACH for Medicaid payments. In addition , we would discuss
welcome your input to our Bankers   EDI Council meeting. The Bankers EDI Council was
formed by NACHA to address     the needs of the financial community as it relates to
financial ED!. If you are interested in interacting with this
If you have any questions or need more information please dogroup, please let me know.
I may reached at 703/742-   9190.                             not hesitate to contact me.


                                        Si nee rei y,




                                      Linda O' Hara

                             Director of Rules & Operations





                                             A - 9

                           APPENDIX
                                        NOTE

National Automated Clearing House Association ACH: The Electronic
Solution , no date.

See Health Care Financing Administration Report to Congress on Electronic
Media Claims (RC- 90- 028) , October 23 , 1990 , p. 3. Until 1986 , when Congress
imposed a 14- day minimum delay before payment , providers using electronic
biling were paid substantially        faster.   Recently, HCFA has helped develop a
standard electronic physician claim form , which providers can use to bil             private
insurance companies and Medicaid as well as Medicare.

Health Care Financing Administration State Medicaid Manual              Section 11205.


 Medicare Program: Revised Procedures for Paying Claims from Providers of
Services , II 56   Federal Register   31666 (July 11 , 1991).

The announcement of the EFT            proposal in the   Federal Register   did not
estimate the number of providers who were expected to request EFT or the
total anticipated savings. Under the proposal , HCFA would also allow
payments to be made by wire transfer--a process similar to EFT. However
because wire transfers are more expensive than EFT , providers would have to
pay the costs associated with that service.
The appropriate Medicaid agency    official in West Virginia was unable to
participate because of ilness. The District of Columbia also participated in the
survey and is hereafter referred to as a State.
In Arizona , EFT is available only to nine large health plans; in Nebraska , only
to State-operated institutions and agencies; in New Jersey, only to hospitals; in
Pennsylvania , only to pre- paid health plans; and in Texas , only to providers
under contract. In Georgia , EFT was started as a pilot program for hospitals
and nursing homes only, but it wil soon be available to all provider tyes. Only
Florida and North Carolina currently make EFT available to all provider tyes.

AIl but 16 respondents mentioned at least one advantage. It should be noted
that respondents were not asked to identify advantages and disadvantages of
EFT in general , but rather of real- time EFT in particular. Real- time EFT
would transfer money to providers immediately after they dispensed services.
The advantages of real-time and non-real- time EFT are generally the same.
But real- time EFT carries some disadvantages that need not pertain to non-
real- time EFT. Because real- time EFT wil not likely be an option for
       report.
       Medicaid programs , these additional disadvantages are not discussed in this


       Twenty- five respondents mentioned provider relations; 13 mentioned reduced
       administrative costs.

10.	   This estimate was set about three years ago and has not been adjusted for
       inflation. The costs represent staff salary and benefits for the time necessary to
       cancel one check and manually produce another. The State is not assessed
       charges by the bank for canceling checks.
11.	   56   Federal Register   31667.

12.	   For a discussion of other computerized claims- processing functions , see Office
       of Inspector General Point-of- Service Claims Management Systems for
       Medicaid , OEI- 01-91- 00820.

13.	   In Utah , the printing and paper cost of each check is only 1.2 cents. In
       Oregon , the cost is only 0. 75 cents.

14.	   Twenty-nine States can send RAs on computer tape , and 7 States can send
       them on computer diskette.
15.	   Telephone conversation with Karen Lyter , National Automated Clearing House
       Association , September 12 , 1991.

16.	   Health Care Financing Administration    Report to Congress    p. 2.
